  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




REVIEW OF PHYSICIAN SUPPLEMENTAL
PAYMENTS MADE TO THE UNIVERSITY
          OF NORTH TEXAS



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                      Patricia Wheeler
                                                 Regional Inspector General
                                                     for Audit Services

                                                       September 2014
                                                        A-06-10-00082
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Texas, the Health and Human Services
Commission (State agency) administers the program.

Texas State plan amendment 04-010 (SPA) provided for quarterly physician supplemental
payments (supplemental payments) for services provided by physicians who were employed by
group practices owned or operated by one of the three State academic health systems. The State
agency provides supplemental payments to encourage physicians to provide health care to more
Medicaid patients. The SPA was codified in the Texas Administrative Code. This is the first in
a series of reports on the Texas physician supplemental payment program.

The State agency contracted with Public Consulting Group (PCG) to develop the supplemental
payment program. PCG drafted the SPA; determined which physician group practices qualified
for supplemental payments; and calculated the supplemental payments for the State agency until
2007, when the State agency began performing the calculations with assistance from PCG.

The University of North Texas Health Science Center (UNT), 1 of the 3 State academic health
systems, provides health care services in more than 35 locations in Tarrant County, Texas. The
State agency made $8,332,388 ($5,058,004 Federal share) in supplemental payments to UNT for
Medicaid services provided between May 1, 2004, and September 30, 2007.

The SPA required the State agency to calculate an average commercial ratio (ratio) based on fees
that commercial carriers would have paid for Medicaid physician services (commercial fees) and
fees that Medicare would have paid for the same services (Medicare equivalent fees).
Commercial fees and Medicare equivalent fees are typically higher than Medicaid fees. To
calculate each quarterly supplemental payment made during Federal fiscal years 2004 through
2007, the ratio was multiplied by the total of all Medicare equivalent fees for Medicaid services
provided during the quarter. This amount, less Medicaid payments already made for those
services, was the supplemental payment.

OBJECTIVE

Our objective was to determine whether the State agency calculated supplemental payments
made to UNT in accordance with Federal and State requirements.
SUMMARY OF FINDINGS

The State agency did not always calculate supplemental payments made to UNT in accordance


                                                i
with Federal and State requirements. Specifically, the supplemental payment calculations
included:

   •   overstated Medicare equivalent fees for claims that included diagnostic tests and Current
       Procedural Terminology code payment modifiers,

   •   Medicaid services that were performed by ineligible providers, and

   •   Medicaid services that did not have Medicare equivalent fees.

As a result, UNT received $1,229,407 ($746,461 Federal share) in unallowable supplemental
payments.

The overpayments occurred because the State agency did not have any formal written policies
and procedures to ensure that the methodology used to calculate supplemental payments was
consistent with the terms of the SPA and complied with Federal and State requirements.
According to a State agency official, PCG provided 6 months of hands-on training to a State
agency rate analyst before the State agency assumed responsibility for calculating the
supplemental payments. The official said that the rate analyst, who initially calculated the
supplemental payments for the State agency, created a one-page document based on the training
that PCG provided. That document contained only limited procedures for the calculation.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $746,461 Federal share of improper supplemental
       payments made to UNT and

   •   develop formal written policies and procedures to ensure that the supplemental payment
       calculations include only eligible services performed by eligible physicians and are
       performed in a manner that reduces the potential for errors.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency disagreed with two of our four
findings, described the actions that it planned to take for three of those findings, and described
the actions that it had already implemented for the other finding. Additionally, the State agency
commented that it calculated supplemental payments with the methodology approved by CMS.
However, the methodology the State agency used to calculate supplemental payments for our
audit period was not in compliance with the SPA in effect during our audit period. Nothing in
the State agency’s comments caused us to change our findings or recommendations.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION.......................................................................................................................1

         BACKGROUND ...............................................................................................................1
             Medicaid Program ..................................................................................................1
             Supplemental Payments .........................................................................................1
             Public Consulting Group........................................................................................1
             University of North Texas Health Science Center .................................................1
             Calculating Supplemental Payments......................................................................2
             Current Procedural Terminology Codes ................................................................2
             Current Procedural Terminology Code Modifiers .................................................2
             Diagnostic Test Modifiers......................................................................................3

         OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3
              Objective .................................................................................................................3
              Scope .......................................................................................................................3
              Methodology ...........................................................................................................4

FINDINGS AND RECOMMENDATIONS .............................................................................5

         OVERSTATED MEDICARE EQUIVALENT FEES ......................................................6
              Overstated Medicare Equivalent Fees for Diagnostic Tests ..................................6
              Overstated Medicare Equivalent Fees for Current Procedural Code
               Payment Modifiers ..............................................................................................7

         MEDICAID SERVICES PERFORMED BY INELIGIBLE PROVIDERS......................7

         MEDICAID SERVICES THAT DID NOT HAVE
          MEDICARE EQUIVALENT FEES ...............................................................................8

         THE STATE AGENCY LACKED FORMAL
          WRITTEN POLICIES AND PROCEDURES ...............................................................8

         RECOMMENDATIONS ...................................................................................................9

         STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
          GENERAL RESPONSE .................................................................................................9
              Overstated Medicare Equivalent Fees for Diagnostic Tests and Current
                Procedural Code Payment Modifiers .................................................................9
              Medicaid Services Performed by Ineligible Providers .......................................10
              Medicaid Services That Did Not Have Medicare Equivalent Fees .....................10
              The State Agency Lacked Formal Written Policies and Procedures ...................11




                                                                     iii
APPENDIXES

   A: ORIGINAL AND RECALCULATED RATIOS

   B: ORIGINAL AND RECALCULATED SUPPLEMENTAL PAYMENTS

   C: STATE AGENCY COMMENTS




                              iv
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Texas, the Health and Human Services
Commission (State agency) administers the program.

Supplemental Payments

CMS approved Texas State plan amendment 04-010 (SPA) on October 19, 2006, with an
effective retroactive date of May 1, 2004. The SPA provided for quarterly physician
supplemental payments (supplemental payments) for services provided by physicians who were
employed by group practices owned or operated by one of the three State academic health
systems. 1 The State agency provides supplemental payments to encourage physicians to provide
health care to more Medicaid patients. This is the first in a series of reports on the Texas
physician supplemental payment program.

Public Consulting Group

The State agency contracted with Public Consulting Group (PCG) to develop the supplemental
payment program. PCG drafted the SPA; determined which physician group practices qualified
for supplemental payments; and calculated the supplemental payments for the State agency until
2007, when the State agency began performing the calculations with assistance from PCG. 2

University of North Texas Health Science Center

The University of North Texas Health Science Center (UNT), 1 of the 3 State academic health
systems, provides health care services in more than 35 locations in Tarrant County, Texas. The
State agency made $8,332,388 ($5,058,004 Federal share) in supplemental payments to UNT for
Medicaid services provided from May 1, 2004, through September 30, 2007.




1
 The State agency selected these three State academic health systems for supplemental payments because the
doctors they employ serve a disproportionate share of Medicaid patients.
2
 Although PCG performed most of the supplemental payment calculations during our audit period, we use the term
“State agency” when discussing supplemental payment calculations. The State agency is ultimately responsible for
ensuring that supplemental payments are calculated correctly.


                                                       1
Calculating Supplemental Payments

To calculate quarterly supplemental payments made for services provided by physicians
performed from May 1, 2004, through September 30, 2007, the State agency was to:

       •    calculate an average commercial ratio (ratio) based on fees that commercial carriers
            would have paid for Medicaid physician services (commercial fees) and fees that
            Medicare would have paid for the same services (Medicare equivalent fees) 3 for
            Medicaid services provided during the base period (2005),

       •    calculate the aggregate of all of the Medicare equivalent payments for the Medicaid
            physician services performed during the quarterly payment period by multiplying
            Medicare fees by the number of times the services were performed,

       •    multiply the ratio by the aggregate of all of the Medicare equivalent payments, and

       •    subtract from that amount what Medicaid already had paid for the Medicaid physician
            services during the quarterly payment period to eligible physician group practices. 4

Current Procedural Terminology Codes

The SPA required the State agency to use the American Medical Association’s Current
Procedural Terminology (CPT) codes when determining fees for physician services across
commercial, Medicare, and Medicaid fee schedules. CPT is a uniform coding system that
identifies medical services performed by physicians and other health care professionals. 5

Current Procedural Terminology Code Modifiers

A CPT code modifier is a two-character (alpha and/or numeric) code that gives Medicare,
Medicaid, and commercial payers additional information needed to process a claim. Physicians
use claim modifiers to indicate that a special circumstance has altered a service or procedure
without changing the code for that service or procedure. Some modifiers are informational only
and do not affect reimbursement. Other modifiers will increase or decrease a physician’s
payment (payment modifiers).




3
    See Appendix A for a detailed description of how the State agency calculated the ratio.
4
    See Appendix B for a detailed description of how the State agency calculated supplemental payments.
5
  The five character codes and descriptions included in this report are obtained from Current Procedural
Terminology (CPT®), copyright 2004-2007 by the American Medical Association (AMA). CPT is developed by
the AMA as a listing of descriptive terms and five character identifying codes and modifiers for reporting medical
services and procedures. Any use of CPT outside of this report should refer to the most current version of the
Current Procedural Terminology available from AMA. Applicable FARS/DFARS apply.


                                                            2
UNT used payment modifiers 22 (increased procedural services), 50 (bilateral surgery), 51
(multiple procedures), 6 52 (reduced services), 7 62 (cosurgeons), 80 and 82 (assistant at surgery
services), AQ (physician service provided in an unlisted health professional shortage area), and
QU (physician service provided in an urban health professional shortage area). 8

Diagnostic Test Modifiers

A diagnostic CPT code without any modifier indicates that the fee is for the “global” service,
which includes both the professional and technical components of a diagnostic test. Providers
add the modifier 26 or the modifier TC to diagnostic CPT codes on Medicare and Medicaid
claims when only one component is claimed. Modifier 26 indicates that the fee is for the
professional component of a diagnostic test, i.e., the physician’s interpretation of a test. Modifier
TC indicates that the fee is for the technical component of a diagnostic test, i.e., the cost of the
physician’s equipment, supplies, and personnel.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency calculated supplemental payments
made to UNT in accordance with Federal and State requirements.

Scope

We reviewed $8,332,388 ($5,058,004 Federal share) in supplemental payments made to UNT for
Medicaid CPT codes, or claim lines (services), provided from May 1, 2004, through
September 30, 2007. For Texas Health Steps services, we could not verify whether the
physicians who performed the services were eligible providers, so we selected a random sample
for further review. 9 We did not review the overall internal control structure of the State agency.
We limited our review to internal controls directly related to our objective.



6
  Modifier 51 signals that the highest valued procedure is paid at 100 percent of the fee schedule and the second
through fifth highest valued procedures are paid at 50 percent of the fee schedule. Because we could not determine
the order of procedures, we recalculated payments with modifier 51 at 100 percent of the fee schedule.
7
 When providers use modifier 22 or 52, they must submit additional documentation to receive a payment
adjustment. In determining the Medicare equivalent, we would have had no way to determine whether any incentive
payment would have been made for these services. We used 100 percent of the Medicare fee schedule for claims
with these modifiers.
8
 When providers amend services with modifier AQ or QU, they must submit additional documentation to receive a
10-percent incentive payment. In determining the Medicare equivalent, we would have had no way to determine
whether any incentive payment would have been made for these services. We used 100 percent of the Medicare fee
schedule for claims with these modifiers.
9
  The Texas Health Steps program provides medical and dental checkups to Medicaid beneficiaries from birth
through 20 years old. The claim lines did not identify the individuals who performed the services.


                                                         3
We performed our fieldwork at the State agency and the Texas Medicaid and Healthcare
Partnership (TMHP) 10 in Austin, Texas.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal and State requirements;

       •   reviewed the Medicare fee schedules for our audit period;

       •   reviewed the Texas Medicaid Provider Procedures Manuals in effect during our audit
           period to understand claim processing requirements for Medicaid providers;

       •   reviewed the State agency’s responses to our questions;

       •   reviewed written and electronic documents the State agency provided;

       •   interviewed personnel from CMS, the State agency, and PCG about procedures for
           calculating supplemental payments;

       •   obtained a list from UNT of all performing providers 11 whose services were included in
           the supplemental payment calculations;

       •   reviewed the list of providers to determine whether the services submitted for
           supplemental payments were performed by eligible physicians;

       •   obtained and reviewed the medical records that supported the Texas Health Steps sample
           claim lines to determine whether eligible providers performed the services;

       •   recalculated the ratio by:

                o obtaining the Medicaid Management Information System (MMIS) data that the
                  State agency used to calculate the ratio,

                o identifying eligible Medicaid physician services,

                o matching commercial fees to eligible Medicaid services, and

                o matching Medicare fees to eligible Medicaid services; 12

10
     TMHP is a contractor that has processed Texas Medicaid claims since January 1, 2004.
11
     Performing providers included physicians, nonphysicians, and facilities.
12
     See Appendix A for more information on our ratio recalculations.


                                                            4
       •   recalculated the quarterly supplemental payments by:

               o obtaining the MMIS data that the State agency used to calculate quarterly
                 supplemental payments,

               o identifying eligible Medicaid physician services (this step required us to add
                 1,846 eligible Medicaid services that the State agency had inadvertently omitted
                 from its calculation), and

               o matching Medicare fees to eligible Medicaid services (this step required us to
                 correct Medicare equivalent fees for 769 Medicaid services for which the State
                 agency had used incorrect Medicare equivalent fees); 13 and

       •   discussed our preliminary findings with the State agency, UNT, and PCG.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

The State agency did not always calculate supplemental payments made to UNT in accordance
with Federal and State requirements. Specifically, the supplemental payment calculations
included:

       •   overstated Medicare equivalent fees for claims that included diagnostic tests and CPT
           code payment modifiers,

       •   Medicaid services that were performed by ineligible providers, and

       •   Medicaid services that did not have Medicare equivalent fees.

As a result, UNT received $1,229,407 ($746,461 Federal share) in unallowable supplemental
payments.

The overpayments occurred because the State agency did not have any formal written policies
and procedures to ensure that the methodology used to calculate the supplemental payments was
consistent with the terms of the SPA and complied with Federal and State requirements.




13
     See Appendix B for more information on our supplemental payment recalculations.

                                                         5
OVERSTATED MEDICARE EQUIVALENT FEES

Overstated Medicare Equivalent Fees for Diagnostic Tests

Section 1902(a)(30)(A) of the Social Security Act requires that Medicaid payments be
“consistent with efficiency, economy and quality of care ....” Also, Office of Management and
Budget Circular A-87 states: “A cost is reasonable if, in its nature and amount, it does not
exceed that which would be incurred by a prudent person under the circumstances prevailing at
the time the decision was made to incur the cost.” Sections e(2)-e(4) of the SPA required the
State agency to make supplemental payments that were equal to the difference between the
Medicare equivalent fees multiplied by the ratio and the Medicaid payments that already had
been made.

The State agency used global service fees to calculate the Medicare equivalent fees for Medicaid
physician services related to diagnostic tests even when Medicaid had paid for only the
professional or the technical component of the services. 14 In most cases, the global service fee is
substantially higher than the professional component fee and moderately higher than the
technical component fee. In the following example, the State agency used the global service fee
to calculate the Medicare equivalent fee, even though the Medicaid payment was only for the
professional component fee.

                             Table: Incorrect Use of Global Service Fee


            Atherectomy, X-Ray Exam            Modifier        Medicare Fee        Medicaid Fee
                                                                  2005                2005

           CPT code 75992                     No modifier           $657                $457
                                              (global fee)

           CPT code 75992                         26                   29                  23
                                             (Professional
                                              component)

           CPT code 75992                         TC                  628                 434
                                               (Technical
                                              component)


The State agency should have used the Medicare fee of $29 for its supplemental payment
calculations. Instead, it used the $657 global service fee, which overstated the Medicare
equivalent fee by $628 (2,166 percent).


14
  The State agency used diagnostic test modifier 26 for 2008 reconciliation payments that it made to UNT for
services that UNT physicians performed in 2006. We factored the reconciliation payments into our supplemental
payment recalculations.


                                                       6
Overstated Medicare Equivalent Fees for Current Procedural Code Payment Modifiers

Chapter 12, section 20.4, of the Medicare Claims Processing Manual states that adjustments
should be made to fees for services when there are multiple surgeries, bilateral surgeries,
assistants at surgeries, or two surgeons or a surgical team. These situations require payment
modifiers that adjust the fees for the services.

The State agency calculated Medicare equivalent fees for Medicaid physician services at
100 percent of the Medicare fee schedule even when the CPT codes were appended with
payment modifiers. 15 For example:

     •   The State agency used 100 percent of the Medicare fee of $1,326 for CPT code 35666,
         which had been appended with modifier 82. The State agency should have multiplied the
         Medicare fee by 16 percent, which would have yielded a $212 Medicare equivalent
         payment. This error resulted in a Medicare equivalent overstatement of $1,114.

     •   The State agency used 100 percent of the Medicare fee of $468 for CPT code 49505,
         which had been appended with modifier 50. The State agency should have multiplied the
         Medicare fee by 150 percent, which would have yielded a $702 Medicare equivalent
         payment. This error resulted in a Medicare equivalent understatement of $234.

Additionally, the State agency should have adjusted fees for CPT codes appended with modifiers
62 and 80. For these modifiers, the State agency should have multiplied the Medicare fee by
62.5 percent and 16 percent, respectively.

The State agency overstated Medicare equivalent fees for diagnostic tests and claims that
included CPT code payment modifiers because it did not have any formal written policies and
procedures to ensure that the supplemental payments were calculated in accordance with the
terms of the SPA. As a result, the State agency overstated supplemental payments by $828,497
($503,034 Federal share). 16 See Appendix B for more information on the error’s effect on
supplemental payment calculations.

MEDICAID SERVICES PERFORMED BY INELIGIBLE PROVIDERS

Sections e(1) and (2) of the SPA required that to be eligible for supplemental payments, services
be rendered by physicians who were employed by group practices owned or operated by one of




15
  The State agency used CPT code modifiers for 2008 reconciliation payments that it made to UNT for services that
UNT physicians performed in 2006. We factored the reconciliation payments into our supplemental payment
recalculations.
16
  This amount reflects the overstated supplemental payments for both the Medicare equivalent fees for diagnostic
tests and Medicare equivalent fees for CPT code modifiers.


                                                        7
the three State academic health systems (eligible physicians). 17 Those sections of the SPA also
specifically excluded services that contractors performed.

In calculating supplemental payments, the State agency included services performed by
nonphysicians and contractors. The State agency made these errors because it did not have any
formal written policies and procedures to ensure that it included in its supplemental payment
calculations only services that eligible physicians provided. 18 As a result, the State agency
overstated supplemental payments by $431,082 ($261,738 Federal share). See Appendix A for
the error’s effect on the ratio and Appendix B 19 for more information on the error’s effect on
supplemental payment calculations.

MEDICAID SERVICES THAT DID NOT HAVE MEDICARE EQUIVALENT FEES

Section e(3)III of the SPA directed the State agency to calculate the ratio for each Medicaid
physician service using a Medicare equivalent fee. Section e(4)(i) of the SPA directed the State
agency to calculate supplemental payments for only those Medicaid physician services that had
Medicare equivalent fees listed in the Medicare fee schedule.

The State agency included Medicaid physician services that did not have Medicare equivalent
fees listed in the Medicare fee schedule. The State agency included these services because it did
not have any formal written policies and procedures to ensure, in its supplemental payment
calculations, that it included only physician services that had Medicare equivalent fees. As a
result, the State agency understated supplemental payments by $30,172 ($18,311 Federal share).
The State agency’s inclusion of these services accounted for most of the overstatement of the
ratio it computed (Appendix A). See Appendix B for more information on the error’s effect on
supplemental payment calculations.

THE STATE AGENCY LACKED FORMAL
WRITTEN POLICIES AND PROCEDURES

The overpayments occurred because the State agency did not have any formal written policies
and procedures to ensure that the methodology used to calculate the supplemental payments was
consistent with the terms of the SPA and complied with Federal and State requirements.
According to a State agency official, PCG provided 6 months of hands-on training to a State
agency rate analyst before the State agency assumed responsibility for calculating the
supplemental payments. The official said that the rate analyst, who initially calculated the


17
  Section e(1) of the SPA says that “... supplemental payments are available ... to physicians who are recognized as
essential to the Texas State Medicaid program. To be identified as an essential physician and qualify for a
supplemental payment, the physician must be ... [a] Texas licensed physician ... and ... [e]mployed by an eligible
physician group practice that is state-owned or operated.”
18
  In our sample of 100 Texas Health Steps services, we did not have a sufficient number of errors to estimate an
overpayment. As a result, all Texas Health Steps services will remain in the supplemental payment calculation.
19
  Tables 3 and 5 in Appendix B represent separate steps we took to identify Medicaid services performed by
ineligible providers and are combined in the report under the heading “Medicaid Services Performed by Ineligible
Providers.”

                                                         8
supplemental payments for the State agency, created a one-page document based on the training
that PCG provided. That document contained only limited procedures for the calculation.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $746,461 Federal share of improper supplemental
       payments made to UNT and

   •   develop formal written policies and procedures to ensure that the supplemental payment
       calculations include only eligible services performed by eligible physicians and are
       performed in a manner that reduces the potential for errors.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with two of our four
findings, described the actions that it planned to take for three of those findings, and described
the actions that it had already implemented for the other finding. Additionally, the State agency
commented that it calculated supplemental payments with the methodology approved by CMS.
However, the methodology the State agency used to calculate supplemental payments for our
audit period was not in compliance with the SPA in effect during our audit period. The State
agency’s comments are included in their entirety as Appendix C. Nothing in the State agency’s
comments caused us to change our findings or recommendations.

Overstated Medicare Equivalent Fees for Diagnostic Tests and Current
Procedural Code Payment Modifiers

State Agency Comments

The State agency disagreed with this finding, stating that it had calculated supplemental
payments to physician groups affiliated with the University of North Texas in accordance
with the methodology approved by CMS. The State agency added that it would work with CMS
to develop how to best resolve this issue.

Office of Inspector General Response

The State agency did not present any facts or analysis to show that calculating Medicare
equivalent fees for diagnostic tests using global fees when those diagnostic tests were billed to
and paid by Medicaid using Modifier 26 or TC was in accordance with SPA 04-010. Moreover,
the State agency did not present any facts or analysis to show that calculating Medicare
equivalent fees for certain services without modifiers when those procedures were billed to and
paid by Medicaid using modifiers was in accordance with SPA 04-010. The Stage agency did
not show how a global fee was “equivalent” to either the professional component or technical
component, or how an unmodified fee was “equivalent” to a modified fee. In addition, the State
agency did not present any facts to show how or when CMS approved (a) calculating Medicare

                                                 9
equivalent fees for diagnostic tests using global fees when those diagnostic tests were billed to
and paid by Medicaid using Modifier 26 or TC or (b) calculating Medicare equivalent fees for
certain services without modifiers when those services were billed to and paid by Medicaid using
modifiers. Finally, the State agency did not present any facts or analysis to show that our
calculations were not in accordance with SPA 04-010.

Sections e(4)(i) and (ii) of SPA 04-010 required that the State agency make supplemental
payments that were equal to the difference between the Medicare equivalent fees multiplied by
the ratio and the Medicaid payments that had already been made. When a Medicaid payment
was for either the professional or the technical component of a diagnostic test, the Medicare
equivalent fee also should have been for either the professional or the technical component of the
diagnostic test, not both. The State agency’s use of global service fees to determine Medicare
equivalent fees for diagnostic tests did not comply with sections e(4)(i) and (ii) of SPA 04-010
because providers received supplemental payments for services that were not included in the
Medicaid payments that had already been made. Additionally, the State agency deleted all
current procedural code payment modifiers from its supplemental payment calculations.
Therefore, the Medicare equivalent payments the State agency calculated for Medicaid services
appended with payment modifiers were not correct.

Medicaid Services Performed by Ineligible Providers

State Agency Comments

The State agency agreed that services performed by ineligible providers should not be included
in supplemental payment calculations. The State agency said that it would work with UNT to
determine whether any ineligible providers were included in the physician supplemental payment
calculations and would refund the Federal share of any physician supplemental payments that did
not meet applicable requirements.

Medicaid Services That Did Not Have Medicare Equivalent Fees

State Agency Comments

The State agency disagreed with this finding, stating that there are Medicaid and commercial
insurance program physician services involving, but not limited to, children and newborns,
which are not services specifically outlined in the Medicare fee schedule. The State agency said
that it is appropriate to include these services in the calculation of average commercial rates and
physician supplemental payments. The State agency added that it would work with CMS to
develop how to best resolve this issue.

Office of Inspector General Response

Including Medicaid services that did not have Medicare fees listed in the Medicare fee schedule
was not appropriate, and the State agency did not present any facts or analysis to show that
doing so was appropriate and in accordance with SPA 04-010. Section e(4)(ii) of SPA 04-010
states: “Medicaid volume [i.e., the number of times a service is performed] and payments shall
include all available payments and adjustments.” However, sections e(3)III and e(4)(i) of SPA

                                                10
04-010 directed the State agency to calculate the ratio using Medicare equivalent fees and to
calculate supplemental payments for only those Medicaid physician services that had Medicare
fees listed in the Medicare fee schedule. The State agency could not calculate Medicare
equivalent fees for physician Medicaid services that did not have fees listed in the Medicare fee
schedule. Thus, the State agency should not have included those services in the ratio or the
quarterly supplemental payment calculations.

The State Agency Lacked Formal Written Policies and Procedures

State Agency Comments

The State agency stated that after CMS approved the revised methodology included in SPA 04-
029 on April 21, 2008, it implemented detailed procedures for ensuring that only services
performed by eligible providers were included in physician supplemental payment
calculations. In addition, the State agency said that it had implemented a second-level review of
all physician supplemental payment calculations, Medicare fee schedules, and other calculations
to ensure that calculations were correct and consistent with Federal and State rules and
regulations.

Office of Inspector General Response

We did not base our findings on SPA 04-029. The State may have implemented new detailed
policies and procedures for ensuring that only services provided by eligible providers were
included in 2008 physician supplemental payment calculations and a second-level review to
ensure that calculations were correct and consistent with Federal and State rules and regulations.
However, these actions are outside the scope of our review, which was based on policies set forth
in SPA 04-010.




                                                11
APPENDIXES
                   APPENDIX A: ORIGINAL AND RECALCULATED RATIOS 1

The State agency calculated an average commercial ratio (ratio) using fiscal year 2005 data from
the Medicaid Management Information System using the following methodology. For each
Current Procedural Terminology (CPT) code:

       •   Number of times the Medicaid service was provided × average commercial fee 2
           (these amounts were aggregated to determine the numerator in the formula below).

       •   Number of times the Medicaid service was provided × Medicare equivalent fee 3
           (these amounts were aggregated to determine the denominator in the formula below).

Aggregated average commercial payments                              = ratio     or    $1,698,249       = 116.8691%
Aggregated average Medicare equivalent payments                                       $1,453,121


To recalculate the ratio, we made the following adjustments:

       1. We removed Medicaid services performed by an ineligible provider (Ph.D.), who we
          identified by reviewing the University of North Texas’s (UNT) personnel listing.

              $1,697,840
                         = 116.8692%
              $1,452,770

       2. We removed Medicaid services that did not have Medicare equivalent fees. 4

              $1,689,983
                         = 116.3283%
              $1,452,770

       3. We removed Medicaid services that had CPT code modifiers SA or U7, which indicate
          that ineligible providers (nonphysicians) performed the services.

               $1,607,943
                          = 116.2987%
               $1,382,598
We used 116.2987 percent as the ratio in our recalculation of the supplemental payments made to
UNT.

1
    For presentation purposes, we rounded dollar amounts to the nearest dollar and ratios to four decimal places.
2
    According to a State agency official, the average commercial fees are proprietary. Therefore, we could not
    independently verify their accuracy.
3
  We verified the Medicare equivalent fees that the State agency provided us. We did not consider any modifiers for
these fees because the State agency did not provide us with the effect of the modifiers on the commercial fees.
4
    Removing services that had no Medicare equivalent fees left the denominator unchanged.
   APPENDIX B: ORIGINAL AND RECALCULATED SUPPLEMENTAL PAYMENTS 1

                          Table 1: State-Agency-Calculated Supplemental Payment

 Medicare                                   Medicare               Less What
Equivalent                Ratio           Equivalent Fees           Medicaid               = Supplemental Payment
   Fees                                      × Ratio              Already Paid
$14,505,869             116.87% 2          $16,952,881             $8,620,493                        $8,332,388

   To recalculate the supplemental payment as shown below, we corrected the errors. In addition,
   we used the corrected ratio shown in Appendix A. 3

                                 Table 2: Overstated Medicare Equivalent Fees

   We used the Medicare equivalent fees that corresponded with the modifiers used for diagnostic
   services rather than the global fees that the State agency had incorrectly used, and we used the
   payment modifiers that the State agency had incorrectly omitted.

                                                                                                                Supplemental
Medicare                                      Medicare               Less What
                      Recalculated                                                       = Supplemental           Payment
Equivalent                                  Equivalent Fees          Medicaid
                         Ratio                                                              Payment              (Decrease)
  Fees                                         × Ratio              Already Paid
                                                                                                                 or Increase
$13,864,632              116.30%              $16,124,384             $8,620,493            $7,503,891            ($828,497)

                        Table 3: Medicaid Services Performed by Ineligible Providers

   We identified ineligible providers by reviewing UNT’s personnel directory. We determined
   whether the providers were physicians or nonphysicians and whether they were employees or
   contractors. We removed the ineligible providers.

                                                                      Less What                                Supplemental
 Medicare                                      Medicare
                        Recalculated                                   Medicaid         = Supplemental           Payment
 Equivalent                                  Equivalent Fees
                           Ratio                                       Already             Payment              (Decrease)
   Fees                                         × Ratio
                                                                         Paid                                   or Increase
$13,555,829                116.30%             $15,765,250            $8,471,417           $7,293,833           ($210,058)




   1
       For presentation purposes, we rounded dollar amounts to the nearest dollar and ratios to two decimal places.
   2
       The actual ratio used by the State agency in the original payment calculations was 116.86912 percent.
   3
       The actual ratio used in the payment recalculations was 116.29868 percent.
                 Table 4: Medicaid Services That Did Not Have Medicare Equivalent Fees

  When we removed Medicaid physician services that did not have Medicare equivalent fees,
  supplemental payments increased because what Medicaid already had paid was reduced. 4

                                                                 Less What                                Supplemental
Medicare                                  Medicare
                    Recalculated                                  Medicaid         = Supplemental           Payment
Equivalent                              Equivalent Fees
                       Ratio                                      Already             Payment              (Decrease)
  Fees                                     × Ratio
                                                                    Paid                                   or Increase
$13,555,829            116.30%             $15,765,250           $8,441,245           $7,324,005             $30,172

                        Table 5: Medicaid Services Performed by Ineligible Providers

  After reviewing UNT’s personnel directory to identify services performed by nonphysicians and
  contractors, we identified and removed additional services performed by nonphysicians by
  reviewing data from the Medicaid Management Information System and identifying services that
  had modifiers SA and U7. These modifiers indicate that nonphysicians had provided the
  services. On the basis of UNT’s directory alone, we could not determine whether these
  providers were nonphysicians because nonphysicians in Texas are sometimes allowed to use
  physician provider numbers for billing purposes.

                                                                 Less What                                Supplemental
Medicare                                  Medicare
                    Recalculated                                  Medicaid        = Supplemental            Payment
Equivalent                              Equivalent Fees
                       Ratio                                      Already            Payment               (Decrease)
  Fees                                     × Ratio
                                                                    Paid                                   or Increase
$13,207,332            116.30%             $15,359,953           $8,256,972           $7,102,981           ($221,024)


  Total questioned costs: $1,229,407 ($746,461 Federal share).




  4
   The underpayment was offset by the error’s effect on the ratio. Removing these services accounted for most of the
  0.5704-percent ratio reduction.
                                                                                                                          Page 1 of 4


                 APPENDIX C: STATE AGENCY COMMENTS




                  TEX!'IS HEALTH A:-11) HUMA~ Sr..RVTCJ>S COI\fi\.liSSJO'N


                                                                                              KVI, 1 14.1>.'YII'. M   n
                                                                                             .P!:U(U':'J",WO)).D.U!I~:k




                                               M3y~O.    2014



Ms. P&tricia \l.'bcdf:r
Rcgiomlllm])CC(Or General fbr /u.ld.it Setvi(!es
OJlioe t)f Tcspc:cto-r Gcn~al. Offi..oe of :\udit Sarvice.t;
t 100 Conun<=c, Room 632
D8Jias. f e>:liS 75242

Rc!<=neo Re port !'umber A-06·10-000H2

l.li!ar Ms.. Wbeelet:

Tho Texas Health and HtUlt8ll StJ·v~.,; Curn.mission (HHSC) n::cch.'Gd a draft aWit ~.rurl
enrilled ""Revi ~:·,.._: of PhysiciAn Supple~r.tat Payrt'.ent.'l Mwle to lhc t:nhra·s.ity of~o.nh ·rcu......
fi.om the Ueporl:rnt:nt nr H ca]th and HWl U\ll Services Oftice of rl'1:'1pt:clor Gcocral. T.:x: COW!
:cttcr. dated l.1.a.rdt J J ~ '2()14. rcquc~tc:d thM HHSC provide v..orjnen cunxnen\s. im:lud\ni 1:hc
:slatus ofactivm a.keo oc pl.;anotd in ~ln!ic: 111 TR:JX-W': rccornJI~:a:d.atioos.

r "''!'fl'ci""' the opportwity to n:spond. t•lo3u iond the .ua.:ho:d HHSC ~'mop."'"'
wbid> (a) inci...J..,"""""""' n:lr.cd to o:bc coMem oft:>e firwlin&" and " '"om!DOld.nolu, and (h)
delitil:i -...:t:uu:s 1 UJSC bus .._~ or pla'l.lCd.

t r YO'U hav: any qne5tions 01 ttJQuire at.JWti nnul infunnHUun, please oCOOt3ct David Griffi1h,
Oire-..~r ,'lflfl..fS Risk ""d CC'ruplianct' MMa~ent. l\{r. Griffilh may be re..1Cbe4 b) tfltph1•ne
at (512)424-6998 l)( by c-mall at 03.'id.Griffith@hh$C..St'lte..t:ol.us.




0--::h/1_h
Kyle L. >onck, :Vl.D .
                                                                                                                         Page 2 of 4





                         lt:iU.s Healch and l'liUn.ul St:n.~t~tos C..ommiss.ion
                                   ~1a.na:acm<:nt R.c:sponse Ul tl~
        U.S. Depan:ment ~fl1~11h und Hlrmttn Scrvi~i Office oflnspectol' lJenc:rul Rcpon:

                                  Re"ie¥t· ••f Phy5id~tn Supplemen~l l'ayuut1l§
                                     Modt to Cht IJni"'C:rHity uf ~orth Tens



HHSC      di8a~cs \\~th          Oepart.ment of tlethl• u.nU Humem Saviccs (DHHS} Oftlce- of lntqX:ctQr
C:cnc:ra: (OTG) tindings that suggest supplemtnwl ptl!·mcn'"' rol.n~d to (a) Medleare equi,·ulc:nt
t't~~ ror dlagn•nstic lc:sts payment modiii.eJ, Olld {b} .,.... ~.:um:,.;punding published M~<:are teeM
c:ada, \1tere not cnlcohued in )Jc;.4.:~n.lan<:c v.ith stt'Hll a.nd federBl r6qui~n\'J in effect durin;: the
IJC:iod exam~ durins thi.< au~il In Hddirion, HHSC dis:.(ll'ees with th<: DHHS 010 findinA
that M<XIic:aic s.:rviccs ,.itbout Modi""" oquivukn< f«• >hould lt1¥e bew e..ctw..J frum obc
~:.alt.ula1M.m 'J{ lhc lfni\'C'J3'ity of~~~ Texa.t \1\l'tJOSO ~.,I ra1c.


HHSC c~lculated suppkmcnll~ l"'Y111Ct11S 10 ph)-sicim JltOUp& aniliuted with tlt<: Uoi\'crsity                     ,,r
~orth   Tcxas in acrordant:o~ with th!.' mc'lltodoJo.,. approved by the CenteT".;; fnr ~'<dicuc a."VS
M(.-dh:f'itl Scrviocs (CMS) after an exten~lvt:\ lhvro~o~gh, And n:msp:uent review pn)L'C!iM c"tcr.diJli
ftlf a pc:rind uf ovQ· two yem. DW'i113 thiu review rro~c!is. C~.f.S reviewed each comptment of
the propo~~d .o;upplc:rncntDl paym.cut JUccJ Uld.olo~·, dev~l<tpc:l by HHSC's contractor the Public
Consulting Group (PC:\.), inclu.,ling n·.cthodoloQi.}s f01· (a) supplemenual ~)'ntcnfs related tO
Medicare cqui\·alem te~s. (b) st~)hal t>CTvico f¢CS. 3.1\d (c) calcuhtion of the: uvc:rug.;: oom."JlCl'cia.l
rntr:, und !lPPfOVCd th~ resulting &tate plt c: a.ment.lmcnt.

Ol'li'fS OJG i::; eummll)· ))'.'Tfonning si.Dtilar 1\Udits of &Uf>f>l~mc:nt.al paymcn:s HHSC mode h)
University of'f~!<as S~·:dem und TcxA~ Toch S)'!tcru :,ospica.ls a.:; pan uf a :s.erie;s of audits on the
TCA~::s vhy~i~iau SUIJJ.d<::tuenlal ~i'"~Tll pru~um. Since p")mem cal~Ul311M.J; fhr ct~c.h of tbe
o~nivcro;icy systems stllll:oei.ug a~;.Cited tOU,)w~d the :-~am<: !ipprovcd p;tyment Jnelbodol<.Jgi~:~ and
dmetiumes .e.s.; paym~;nts ro the UnhW$lt)' of N'-lrth 'lCxw;.. HHSC is ooncc.t·u..::d that audit n:~ul'-'
for che other SY"Sll:ms bei11~ audited wil1 hAve rtsulu sjmilar u. lhvsc: Pf\:'8cntcd in tbjs dntt
rcpoft.

HHSC will          ...,.~<,   with CMS to dtvd.>p bow tu            hc$1   I':>Oh" tlt<:sc   mo..,   " ; th th: p i o!
ret>e~.;n~   •   """""""'I<:: ....,(ution sbonly afttr th• Telnoinin~ m m:s OIG .....m. are romplel.ed.
ln :~ddition, H}JSC W:JI cooTdinu.\c: ,_,i fb 1hc Uuivcuiry of Nt)rth Tc::xas to utak.c a t"lU3J
detmnination of wlh::thel' jn~U~iblo p:vvil.lcr$ were in.::udcd ln ttle physit:illl"' !'upplcmrotttl
p:tyment colt!uhfli<.m, and rcftmd the fi,cleraJ share a)f ony ph)·t;.i<:hm ~upplemencal po}'ment~ that
did nc>t rneeE applicuhle n:quircmcuts.

Dct~ilcd     responses to each aftl:e      Tel.'t)mmcndt~lic.,n:s   included in :he repl)l'l fuHm~o:.
                                                                                                                  Page 3 of 4





HHSC Managcmcm Response                Rtviownfl'hy<ioian Suwl=cntal Paymeots • UNT
M•y :\0,2014
Pogo2


DHHS • OIG          lteoomm~ndnti~•n:       Wt "«Cormmmd thtu the Stott· aJ...;etH;.v n.fvnd I<"~ tl•l$ F~dcral
Gnverwr.enr the $i46,.f6J i"l!d~tal share oflmpriJpiJr ~;qJIIi~mMWI pa)>f11tnf~ made to {L\'1'.

.ti.HSC .\1anngtment Rt$pOmu:x

Ovot~Wetl Mc:.Jican; Equbodcnt Fcc~Jor l)J.pgnostje Tem: and C:urrenl            Pnux~doCJil   C'ode
l 1a"ment Moditiers
           (Audit :epo11.ed thnt the fet.lcru.lahurc ol"c.wct!tatcd paymcrru was &503,034)

IIHSC:      ,;~  v.ilh this 6ndim: because it <alculatl!d •UJ111km<nlal payments to pl>yaicien
lil""''"    affi~OIOI
                 "i-ll tho l'ni•-:nit)' of Nonh Tex.u in occunLmcc "lth tho mcthodolcl;y
Optlt'OY<d by eMS. IIIISC v.iU Wtllk will• C."'S to d<\oclop          bow"'-
                                                                          n;;<~l"C this ;.,.,c. "idl
lbe goal ofttadling a reasnnahle """'''"""' <hortl)· oftcr tho rernainin& DIDIS OlG ..,dils arc
comp!cltd.



           Deputy t:xecuti¥e Cnmml.1si1.'nor for Fiuncial Services.

Metli~id St:rvj~c~     ¥aformed bv Jnelioiblt Providers
           (Audit "'P<'rf<d that Ibe fedeml shN'6 of ovotstOlbd puymc:mos was $261,738}

HHSC relies upon the lf•,lvroi1y ur KIJT'th Tcx.As and odl.eJ.· ph.yslcia.n ~uup~ to i<IQ1ti.ty
jmWidcC"S tligibl~ :or physiciM suppltmt:nbl ruym<.n ts.      If an)' ineliP.ible provider$ were
im::Jud.al, HHSC agr~cs these pro\·iders should not he cc.1n:s:d¢f¢d in the L':1ivecslty c,(' N(11'lh
'fexac;'~   iupplcrnc:;:owl puym<.nt c:aCculati.on.

tm:SC 118 implem-ented odditiunu1 :.~.rcivatds 10 i<kntify and prevent ('II'U')pc..,1ivr caon..
i-ocbding Rquiring hospitJ.ts oo a:dif) the 1\,1 o f eligible providers for incJusi,n11 in the
rupplem<nlill f"l"'tcnl calcula!lou eo<h qiWil!r.

           .4~tiu rq Planned

           HHSC \\ill W,:t.!'k wjtb tJ)e Un.iven:ity ,,fNoJ1h Tc~as to determine whether ctny ineligible
           provid~s V.'CJ'C  included in rJte phy~ie;an suppl em~ntal paymcut calcula:i.L)It~. Onr.:c 1.1
           tletc:rminntiUon is reached, liHSC wltl 1-efund the fo'ic:TJtl ~hare of :l.Dy pbysicio.n
           supplementll poymcnto; tlu.t did not meet appticabJe requirement~e.



           Ueputy L.l\el!util-·t: f:{nnmissioncr for Flnnncit\1 Services
                                                                                                                         Page 4 of 4





HH.SC Management Re.<:)'IOm:e- Review <1f Phy!.ici..m Suppltm(':lttal Payments • UNT
May 30,2014
Pugo 3


Medic~id Servic-es ttw. Oid l\uL Huvc Mcdjcarc EQ.~tlval;n; Fees
         (Audit stated that the 1edef.:il »l:.u.re uf uwJerst.ti.QcJ puyments WRS $l&lj 11)

HHSC di~~C$ ..,,ith this finding. There are Medicaid .3Jtd etlmmerciul in~umn~c: prograru.
phy.3ician 5.-eroice~ in\'ulvins. but not limitod to, children 3.lld newborn.~. wlticlt om: n(tl ~vit:<::s
$pocifically outlined in the )..fedicare lfe ~hec1ule. Tn lh~~c instances, it is approprjate to jncJude
M.._-dic~id str\'i¢tS in the calculation of .:verage Ct)lntnen:ial na~~ ~d physician supplemental
).><ymon l•.

1HlSC will \.t.:Ork with CMS lt) c,Jc,.•vclop how to bc$t :csolve this issue, with the g.md (lr reaching a
re.as.oll3b1e resolutlt)f'l sht)rll}' unt"T lh~ rcmilining DHHS OIG audits tuc completod.

         'l'iHe of Respo.,s.:ibf~ P'{+tS.on

         O~uty Ex~~•bv<:       Cor.lDliss.ioncr for financiaJ Sel'\•ice.:;

UJtHS • OlG U.ceomm.a:uh.tiun: If'(! rcror.u~wttd that rll..• Slaw ab't:nC)' dEtvelop fonnn/ 'rl'fitlt!n
pa!icie.-. and po...--ehes to ~nn.r~ tltallhe Juppiflmt'nlw' pa)Wte:nl colculotinm indud..! only eli,::ibifl
~en'ice~ ptuformed by eligil!Jl' pltyn't·iun,r uml urtt fU.'~/ilrmE!d in'~ Jl'f(TI)nel' riwt r<>due<>s r~ J'IOl('nfial
fo~errors.


HHSC :Vbnngementl{espon"':

lifter C:\1S "''Jlmved the ,.,,;,.c) molhodok•gy included in Sl'.'\. 04·029 on April2l, 2008, HHSC
implemented detailed pml.!edl.lre~ lOr t:nsurinK th.:it or.ly services performed by ~ligible prm·idm
wor-e included in physician $ll(l(lfement.al pttymc:nl ~u)¢Lilatio:ls.               In addition, lJHSC
impkmmle4.1 a .3~ond lev-el t'e\·iew of all physician ~upplem~n1~l p::tymcut c:\ktllations.
Medicare rec schc;'(,.)ul(:s. and other c:U~ulatlous ro ensure ce.lcufati<n'l~ un:: W'Ct~c:t anC consistent
with federal and Mo.te rules AlnLI T<'gu}~tion.s.

         'l'irte of Rtspoo.sibtc P~Crshn
